August 7, 2013

MEMORANDUM FOR:             JOHN E. LARRIMORE, JR.
                            MANAGER, AREA MAIL PROCESSING AND FACILITY
                            CONSOLIDATIONS




FROM:                       Robert J. Batta
                            Deputy Assistant Inspector General
                             for Mission Operations

SUBJECT:                    Management Alert – Modified Altoona, PA Originating and
                            Destinating Area Mail Processing Package
                            (Report Number NO-MA-13-006)

This management alert presents our review of the Modified Altoona, PA Originating and
Destinating Area Mail Processing (AMP) Package. The alert specifically discusses
errors made in the revised AMP package for consolidating Altoona, PA Processing and
Distribution Facility (P&DF) originating and destinating mail into the Johnstown, PA
P&DF (Project Number 13XG039NO000). Because of the significant adverse impacts of
implementing this AMP, we are issuing this alert to facilitate corrective action prior to the
proposed July 2013 implementation date.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact James L. Ballard, director,
Network Processing and Transportation, or me at 703-248-2100.

Attachment

cc: David E. Williams, Jr.
    Linda M. Malone
    Corporate Audit and Response Management
Modified Altoona, PA Originating and Destinating                              NO-MA-13-006
 Area Mail Processing Package



Introduction

As a result of a congressional request to review several Pennsylvania (PA) mail
processing facility consolidations, the U.S. Postal Service Office of Inspector General
(OIG) began an audit of the originating Altoona, PA Processing and Distribution Facility
(P&DF) consolidation in February 2013. While reviewing the Area Mail Processing
(AMP) package regarding consolidation of the Altoona, PA P&DF originating1 mail into
the Johnstown, PA P&DF, we became aware of a revised AMP package that expanded
the consolidation to include the Altoona P&DF’s destinating2 operations. Our review of
this revised AMP, scheduled to be implemented in July 2013, identified significant
errors. Because of the significant adverse impacts of implementing this revised AMP,
we are issuing this alert to facilitate corrective action prior to the proposed July 2013
implementation date.

Conclusion

Based on our review of the revised AMP, the Altoona P&DF would not have a sufficient
number of mail processing employees to process the remaining destinating mail
volume. The shortfall would amount to over 19 employees, or about 32,000 workhours.
This error also resulted in a $1.3 million overstatement in cost savings associated with
this revised AMP (see Appendix A). Conversely, the revised AMP would have created
overstaffing at the Johnstown P&DF by about 16 employees.

Excess Workhour Reductions

The revised AMP would result in excess workhour reductions at the Altoona P&DF.
We estimate that 85,050 workhours would be necessary to process the remaining
mail volume of 469 million mailpieces, while the revised AMP only allocated
52,822 workhours, resulting in a shortfall of 32,228 workhours. We identified nine
operations that were not allocated any workhours under the revised AMP. Table 1
identifies these operations, the workhours needed to staff them and the associated
labor costs. By not allocating these workhours, the saving associated with the AMP was
also overstated by about $1.3 million.




1
    Originating is the point of entry into the mailstream.
2
    Destinating is the intended point of delivery for mail.

                                                              1
Modified Altoona, PA Originating and Destinating                                                  NO-MA-13-006
 Area Mail Processing Package




               Table 1. Impacted Altoona P&DF Mail Processing Operations

    Operation                   Operation Description                       Required           Workhour
     Number                                                                 Workhours            Cost3
        55             Priority – Manual Incoming                                    1         $       69
       151             Manual Letters – Incoming Primary                         1,023            45,767
       171             Manual Flats – Incoming Primary                             910            40,691
       240             Manual Distribution – Station/Branch                      1,463            65,407
       649             Business Reply Mail                                         259             8,969
       769             Station/Branch Box Section                                  771            35,287
                       Delivery Barcode Sorter/Delivery Input
                       Output Sub-System Barcode Sorter
                       (DBCS/DIOSS BCS) Incoming
        896            Secondary                                                       109            4,422
                       DBCS/DIOSS BCS Delivery Point
        918            Sequence (DPS), 1st Pass                                    19,644         795,498
        919            DBCS/DIOSS BCS DPS, 2nd Pass                                 8,048         325,899
       Total                                                                       32,228      $1,322,009
Source: AMP package.

Altoona Processing and Distribution Facility Employees Adversely Impacted

The Altoona P&DF will lose more mail processing employees than necessary under the
revised AMP, leaving it without enough employees to process the remaining workload.
We estimate that 49 mail processing employees would still be needed at the Altoona
P&DF; however, the revised AMP only allocated 30 employees, resulting in a shortfall of
19 mail processing employees. If this revised AMP had been executed, it would have
resulted in the unnecessary relocation/reassignment of 19 employees.

Excess Staff at Johnstown

In regard to the Johnstown P&DF, the revised AMP would have resulted in an
overstaffing of 16 employees. This overstaffing would have resulted in a decline in
productivity of about 3 percent from prior performance. Based on prior consolidations,
productivity normally improves from 5 to 10 percent at the site receiving the mail
volume.

We discussed our concerns with management on May 22, 2013. During these
discussions, management agreed they made mistakes in the AMP calculations and
agreed to make the necessary corrections. They also stated that area personnel who
prepared the AMP worksheets were not sufficiently trained, nor were they provided
sufficient oversight while preparing the revised AMP package.

3
  We calculated workhour savings by multiplying the workhour reduction proposed in the AMP by the workhour rate
for the specific operation number, as identified in the AMP.

                                                        2
Modified Altoona, PA Originating and Destinating                             NO-MA-13-006
 Area Mail Processing Package




Recommendations

We recommend the manager, Area Mail Processing and Facility Consolidations:

1. Make necessary corrections in the revised Area Mail Processing package by
   adjusting workhours and employee complement accordingly and determine whether
   they should pursue the additional consolidation.

2. Provide sufficient training and oversight to area personnel tasked with completing an
   Area Mail Processing package to avoid future errors.

Management’s Comments

Management agreed with recommendation 1. Management re-evaluated the Altoona
P&DF consolidation and determined some workhours were not correctly accounted for
while other workhours incorrectly understated potential savings. The corrected study
reveals an annual savings of $717,524 as opposed to the original savings of
$2,400,062. Management has already corrected the AMP study and implemented the
final stage of the consolidation in July 2013.

Management did not agree with our conclusion that the Altoona P&DF would not have
enough employees to process the remaining workload asserting our conclusion is
based on general rather than in-depth analysis. Management stated local facilities make
the final determination on excessing impacted employees based upon reviews of
necessary staff. Management added it follows the provisions of the National Agreement,
specifically, Article 12, which governs reassignment of employees and stated that while
implementing AMP's, employees are routinely placed into other non-mail processing
facilities. Management also noted that the data input error is unique among the
numerous AMP studies and asserted the errors would have been identified and
corrected in the Post-Implementation Reviews. Finally, management stated there is still
a positive business case for the consolidation and proceeded with the final stages of the
consolidation.

With regard to recommendation 2, management agreed and will ensure that all
personnel involved in the completion of AMP packages are trained by August 2013.

See Appendix B for management’s comments, in their entirety.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report.




                                                   3
Modified Altoona, PA Originating and Destinating                             NO-MA-13-006
 Area Mail Processing Package


The OIG considers recommendation 1 significant, and therefore requires OIG
concurrence before closure. Consequently, the OIG requests written confirmation when
corrective actions are completed. This recommendation should not be closed in the
Postal Service’s follow-up tracking system until the OIG provides written confirmation
that the recommendation can be closed.

We believe our methodology of workhour analysis and our accompanying conclusion is
accurate and reasonable. We conducted our analysis using data provided by the Postal
Service which represented their intentions with respect to workhour reductions and
employee impacts. Our detailed analysis of each mail processing operation impacted by
the AMP study identified errors in the Postal Service's projections of required workhours
that would have resulted in a staffing shortage of 19 employees at the Altoona P&DF
had the AMP been implemented as approved. While management asserts that local
facilities make the final decisions on excessing impacted employees, the calculations
provided in the AMP set the goals for hourly and position reductions. Once
management corrected the errors, their calculations for the proper staffing at the
Altoona P&DF paralleled our analysis. We agree with management’s claim that the
errors identified in this AMP were unique and that the revised savings still supports the
consolidation. Both the OIG and Postal Service management agreed errors were made
in the initial Altoona P&DF AMP calculations. Management has re-evaluated the AMP
package and corrected the errors which should provide proper staffing at both locations.




                                                   4
Modified Altoona, PA Originating and Destinating                                                         NO-MA-13-006
 Area Mail Processing Package




                                         Appendix A: Other Impact

                                                   Other Impact

             Recommendation                          Impact Category                         Amount
                         1                Predicted Savings Shortfall4                       $1,322,009




4
 The difference between the savings the Postal Service predicts for a project (such as capital investment,
consolidation, etc.) and the actual savings realized or the OIG’s estimate of savings which will be realized.


                                                           5
Modified Altoona, PA Originating and Destinating               NO-MA-13-006
 Area Mail Processing Package




                           Appendix B: Management's Comments




                                                   6
Modified Altoona, PA Originating and Destinating       NO-MA-13-006
 Area Mail Processing Package




                                                   7
Modified Altoona, PA Originating and Destinating       NO-MA-13-006
 Area Mail Processing Package




                                                   8
